<html>
<title> - REQUESTING THE PRESIDENT, AND DIRECTING THE SECRETARY OF STATE, TO TRANSMIT TO THE HOUSE OF REPRESENTATIVES COPIES OF ALL DOCUMENTS, RECORDS, COMMUNICATIONS, TRANSCRIPTS, SUMMARIES, NOTES, MEMORANDA, AND READ-AHEADS IN THEIR POSSESSION REFERRING TO CERTAIN COMMUNICATIONS BETWEEN PRESIDENT DONALD TRUMP AND PRESIDENT VLADIMIR PUTIN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




  REQUESTING THE PRESIDENT, AND DIRECTING THE SECRETARY OF STATE, TO 
   TRANSMIT TO THE HOUSE OF REPRESENTATIVES COPIES OF ALL DOCUMENTS, 
RECORDS, COMMUNICATIONS, TRANSCRIPTS, SUMMARIES, NOTES, MEMORANDA, AND 
  READ-AHEADS IN THEIR POSSESSION REFERRING TO CERTAIN COMMUNICATIONS 
      BETWEEN PRESIDENT DONALD TRUMP AND PRESIDENT VLADIMIR PUTIN

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                              H. Res. 1017

                               __________

                           SEPTEMBER 13, 2018

                               __________

                           Serial No. 115-157

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
31-454PDF                WASHINGTON : 2018                 




























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania<greek-l>   TULSI GABBARD, Hawaii
RON DeSANTIS, Florida [until 9/10/   JOAQUIN CASTRO, Texas
    18] deg.                         ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director 
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H. Res. 1017, Requesting the President, and directing the 
  Secretary of State, to transmit to the House of Representatives 
  copies of all documents, records, communications, transcripts, 
  summaries, notes, memoranda, and read-aheads in their 
  possession referring to certain communications between 
  President Donald Trump and President Vladimir Putin............     2

                                APPENDIX

Markup notice....................................................    20
Markup minutes...................................................    21
Markup summary and record vote description.......................    23
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia:
  Material submitted for the record..............................    24
  Prepared statement.............................................    28 
 
  REQUESTING THE PRESIDENT, AND DIRECTING THE SECRETARY OF STATE, TO 
   TRANSMIT TO THE HOUSE OF REPRESENTATIVES COPIES OF ALL DOCUMENTS, 
RECORDS, COMMUNICATIONS, TRANSCRIPTS, SUMMARIES, NOTES, MEMORANDA, AND 
  READ-AHEADS IN THEIR POSSESSION REFERRING TO CERTAIN COMMUNICATIONS 
      BETWEEN PRESIDENT DONALD TRUMP AND PRESIDENT VLADIMIR PUTIN

                              ----------                              


                      THURSDAY, SEPTEMBER 13, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 12:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order.
    We meet today to consider a single item. Pursuant to 
notice, for purposes of markup, I call up House Resolution 
1017, requesting the President, and directing the Secretary of 
State, to transmit to the House copies of all documents in 
their possession relating to certain communications between 
President Trump and Russian President Putin and move to report 
it adversely to the House.
    [The information referred to follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       

    Chairman Royce. Without objection, the resolution is 
considered read and open for amendment at any point, and 
committee members may have 5 calendar days to submit statements 
for the record.
    Because we are dealing with floor votes, activities of 
other committees, and hurricane-related uncertainty this 
afternoon, I am going to use my vote postponement authority 
under committee rules to ensure that all members are given fair 
notice to participate in any recorded vote we may have.
    And I now recognize myself for opening remarks.
    This afternoon, we meet to consider House Resolution 1017. 
As members know, we typically want to see extensive bipartisan 
consultation and at least 25 co-sponsors before marking up 
resolutions.
    This measure does not fall into that category. It was 
introduced with no committee consultation and no co-sponsors, 
as we enter the final stretch of an election campaign.
    And we are here today only because it enjoys privilege 
under House rules as a ``resolution of inquiry,'' which we have 
a duty to report.
    Because this resolution clearly intrudes into judicially 
recognized areas of executive privilege and would likely 
require years of contested and, ultimately, fruitless 
litigation, we should not endorse it. Let me explain.
    This resolution would set a dangerous and harmful precedent 
with respect to Presidential communications. It demands from 
the President every document, communication, transcript, 
summary, note, or memo that relates to matters proposed or 
discussed or agreed to or otherwise covered during, in 
connection with, or in preparation for his meeting with Russian 
President Vladimir Putin in Helsinki back in July.
    Let me be clear. I strongly disagreed with the President's 
remarks in Helsinki. Vladimir Putin is not our friend, and 
there is simply no comparing the actions of the United States 
with those of Putin's Russia.
    Ultimately, Helsinki was a squandered opportunity to 
challenge Vladimir Putin's false narratives on issues including 
Ukraine and Syria and Russia's ongoing interference in our 
democracy.
    So I understand the interest in these issues. I'm sure this 
resolution is a popular idea in some political circles.
    But, ultimately, it is not a wise approach to oversight. 
Indeed, it would only threaten to distract from the bipartisan 
legislative and investigative efforts of this committee.
    This resolution's broad demand for documents conflicts with 
the strongest form of executive privilege recognized by the 
courts--the so-called Presidential communications privilege.
    Rooted in the constitutional separation of powers, 
Presidential communications privilege applies to direct 
decision making by the President and also protects 
communications made or solicited or received by his advisors 
while preparing advice for him.
    These privileges are at their strongest when they deal with 
the President's core constitutional powers, such as his 
authority to conduct diplomatic discussions with foreign 
leaders, and this is with good cause.
    Today we have instant communications, but Presidents still 
have and need the authority to meet and speak and negotiate 
privately with foreign leaders.
    Consider the historic Camp David Accords, a diplomatic 
triumph that strengthened our national security. Members will 
recall this agreement was preceded by 2 weeks of confidential 
negotiations among the American, Israeli, and Egyptian heads of 
state, sequestered in the woods of Maryland.
    And during that time, some were genuinely concerned that 
Jimmy Carter might undermine the security of our ally, Israel. 
Yet, Congress wasn't privy to every utterance.
    By constitutional design, we are not in the room for such 
discussions. We didn't demand transcripts of every conversation 
President Obama had with the Russians, even after an open 
microphone caught him asking President Medvedev for some 
``space'' on missile defense issues, explaining that we would 
``have more flexibility'' after his November 2012 reelection.
    This resolution before us today has implications far beyond 
our current President or our last President. It is about the 
ability of all Presidents to engage with foreign leaders.
    And, sadly, this resolution goes against the grain of this 
committee's important bipartisan work to confront Russia's 
dangerous acts.
    As my colleagues know, this includes powerful sanctions, 
which we authored, on Russian hackers and intelligence 
agencies, passed as part of the Countering America's 
Adversaries Through Sanctions Act, which the administration 
needs to better utilize.
    It includes additional sanctions to punish Russia for 
propping up the murderous Assad regime in Syria, which the 
Senate needs to pass on to the President's desk without further 
delay; and successfully pushing for the imposition of new 
mandatory Russian sanctions under the Chemical and Biological 
Weapons and Warfare Elimination Act, following Russia's use of 
military-grade chemical weapons to poison British citizen 
Sergei Skripal and his daughter on British soil.
    It includes creating a strong reformed export controls 
process that will better protect U.S. advances in emerging 
technology like robotics and artificial intelligence, and 
legislatively authorizing the President to provide defensive 
military systems to Ukraine and to strengthen its cyber 
defenses against Russian attacks; reforming the Broadcasting 
Board of Governors to help revitalize U.S. efforts to counter 
Russian propaganda and disinformation; and enacting the Global 
Magnitsky Human Rights Accountability Act--named after a 
Russian businessman who was murdered by corrupt Russian 
authorities--to hold regimes accountable for human rights 
abuses; and it includes passing through the full House just 
last week the Cyber Deterrence and Response Act, to name, 
shame, and sanction foreign actors who carry out cyber attacks 
against the United States.
    We have taken these actions together because most of us 
have been concerned about administration policies toward 
Russia. I certainly have been.
    So I intend for the committee to continue to pursue its 
serious, bipartisan, and consequential oversight. But for the 
reasons I have laid out, I cannot support this resolution and I 
urge my colleagues to join me in reporting it adversely to the 
House.
    Mr. Engel.
    Mr. Engel. Thank you very much, Mr. Chairman, and as I've 
said many, many times privately and publicly, I want to thank 
you for the fair way you've always run this committee.
    I know this is an unusual situation for both of us. But we 
have reached the point with this administration when I believe 
it's time for tougher action to be taken.
    For 18 months we have been trying to exercise basic 
oversight of the State Department. Two Secretaries of State 
have been here and have said they'd be responsive to our 
committee's requests. It hasn't happened.
    We have been stonewalled over and over again. We have heard 
excuse after excuse after excuse, and on the rare occasion like 
today that the administration sends officials to testify before 
our committee, we rarely get the answers we need.
    This has frustrated me and I've heard the same from many of 
our members, and the secret meeting between President Trump and 
President Putin in Helsinki was the last straw, literally.
    Vladimir Putin unleashed an attack on our democracy to try 
to get Donald Trump elected. President Trump cozies up to Putin 
at every turn. He sides with Putin over our own intelligence 
community.
    So when they went into a room together--no staff, no 
advisors, just the two of them, and interpreters--alarm bells 
went off all over Washington, DC, and around the world.
    It was unprecedented under any circumstances and 
particularly troubling in light of the Trump-Russia scandal 
swirling around this President and his administration.
    As Special Counsel Mueller continues to rack up indictments 
and convictions, my concern is only growing. Now 2 months 
later, the alarm is still going off because the American people 
still have no idea what was discussed in that meeting between 
Putin and Trump.
    We need to know. This is a matter of national security, and 
when an administration--and this would go for any 
administration of either party--shows such bizarre deference to 
an adversary who, clearly, means us harm, it falls to Congress 
to get the answers. That's our job.
    Mr. Chairman, I know you've been working hard to get 
Secretary Pompeo in front of our committee so we can all ask 
these questions. It's outrageous that he hasn't come before us, 
especially since he did pay the Senate that courtesy.
    But you have tried to allow us to do our job and I am 
grateful for your effort. This administration just doesn't seem 
to respect Congress' role as a co-equal branch of government.
    So we are running out of options. The resolution that Mr. 
Boyle has introduced represents one of the few tools Congress 
has in its rules to get answers from an administration.
    I share the frustration that led Mr. Boyle to offer this 
measure and I fully support his effort to find out what 
happened in President Trump's failed summit with the Russian 
dictator in Helsinki.
    I think it's a pretty reasonable set of requests. I wish it 
weren't necessary. I wish the State Department would do what 
Secretaries Tillerson and Pompeo promised, which is to respond 
to our document requests and heed our efforts to carry out 
Congress' constitutional responsibilities by conducting basic 
oversight.
    But they have not, and we need to face facts. The Trump 
administration is not going to give us the information we need 
willingly. Congress has requested. They've said no.
    What we are left with is for Congress to demand, and 
because that's the only option left for Congress to demand, we 
are also left with only one question--what will Congress decide 
to do?
    We are not the first committee to take up a resolution like 
this since the start of the Trump presidency. In other cases, 
markups have descended into partisan rancor.
    Certainly they haven't resulted in getting any information 
from the executive branch. In my view, the Republican 
leadership in the House has opted to cover for this 
administration rather than allowing this body to do its job and 
exercise our checks and balances.
    I am confident, based on this committee's culture, under 
your leadership, Mr. Chairman, that this markup won't follow 
that path. In fact, I hope we can have a good debate about Mr. 
Boyle's resolution, because if anyone thinks we and the 
American people shouldn't know what happened in that meeting, 
I'd like to hear why and I'd like to hear that debate continue 
on the House floor.
    As I said, the only question left is, what will Congress 
decide to do? It should be up to the entire House to weigh in 
on that decision. We shouldn't end this debate here. We 
shouldn't end it today.
    And so, Mr. Chairman, respectfully, I must oppose your 
motion and if it's voted down I'll offer a motion of my own to 
report this resolution favorably, designating Mr. Boyle of 
Pennsylvania to call it up for consideration by the House.
    Again, Mr. Chairman, as I have said many times publicly and 
privately I am grateful to you for your fairness and 
leadership, and I yield back.
    Chairman Royce. The gentleman yields back.
    Floor votes are now underway. We have 4 minutes left in the 
vote. We will recess and then resume our markup immediately 
after the final vote in this two-vote series.
    So I urge members to return promptly after casting the 
second vote. We stand in recess.
    [Recess.]
    Chairman Royce. Mr. Sires.
    Mr. Sires. Mr. Chairman, thank you very much.
    The reason--where am I? My reason here, Chairman--the 
reason we are here today is simple. President Trump stood next 
to Vladimir Putin and took his side over the American people 
and our intelligence community.
    He let Putin lie and say Russia did not have--did not hack 
our elections. In my eyes, he stood on stage with Putin and 
failed to defend someone who is committed to destroying this 
country.
    He took a private meeting with Putin with no aides present. 
We still don't know what happened in that meeting. The American 
people deserve to know what our President said to one of our 
adversaries.
    It is unacceptable that the administration continues to 
cozy up to the Russians at the expense of our security and 
safety.
    We were sent here to conduct oversight of the 
administration's policies and we deserve to know what the 
President and Putin discussed.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    Any other members seek recognition?
    Any other members seek recognition to speak?
    [Pause.]
    Do any members seek recognition?
    Mr. Cicilline.
    Mr. Cicilline. Yes. Move to strike the last word.
    Mr. Chairman, I support House Resolution 1017, which 
requests that the administration turn over documents related to 
the July 16th meeting between Donald Trump and President 
Vladimir Putin.
    Two months after the fact, Congress and the American people 
still know nothing or next to nothing about what was discussed 
between President Trump and Russian President Vladimir Putin in 
a private 2-hour meeting in which none of the President's 
advisors were present.
    After that meeting, President Trump stood on a stage with 
Vladimir Putin, a man who directed his military to launch a 
cyber attack on our country's elections and whose regime 
regularly has journalists murdered, LGBT individuals tortured, 
and political opponents thrown into jail.
    Rather than standing up to President Putin, President Trump 
bent over backwards to appease a dictator and even defended 
Putin while denigrating our FBI, our intelligence officials, 
and anyone who wants to see Putin held accountable for his 
actions.
    This was an incredibly embarrassing and sad day for 
America. Based on the President's own words, here's what we 
know about what took place in the meeting.
    The two had, I quote, ``a direct, open, deeply productive 
dialogue and spoke on a wide range of critical issues for both 
of our countries.''
    The President believed Putin when he told him that it was 
not Russia that interfered in the 2016 elections, regardless of 
the fact that the U.S. intelligence community has without a 
doubt identified Russia as the source of the attack.
    He has since walked back the stance after widespread 
outrage and the mountains of clear evidence to the contrary of 
his claims.
    The President also apparently considered Putin's incredible 
offer, as he called it, to allow Russians to question 
Ambassadors and employees of the United States intelligence 
community. He walked this back too after even his own advisors 
were incredulous at this absolutely nonsensical and dangerous 
proposal.
    Substantively, most of what we know about the meeting has 
come from the Russian Government. A Russian major general was 
reported to have said that the Russian ministry of defense is 
ready for practical implementation of international security 
agreements reached between Russian President Vladimir Putin and 
U.S. President Donald Trump at the Helsinki Summit.
    Despite this committee's repeated requests, the 
administration still hasn't told the American people or this 
committee anything substantive about the meeting in Helsinki 
and certainly nothing about these alleged international 
security agreements.
    This committee has the constitutional authority and 
responsibility to conduct oversight and get answers. The 
administration's lack of transparency about what was said and 
agreed to is particularly disturbing in light of the ongoing 
investigation into the Trump campaign's ties to Russia, which 
has so far produced nearly 200 criminal charges and active 
indictments or to which individuals have already pled guilty.
    Vladimir Putin is not a friend of the United States or the 
American people. He's a brutal dictator whose repressive values 
are completely contrary to our own.
    Given how little we know about what transpired in Helsinki, 
how can we trust that the President didn't offer, purposely or 
otherwise, sensitive information that could put our citizens, 
soldiers, or allies in danger?
    How can we trust that the President didn't commit the 
United States to actions or agreements that may be against our 
Nation's interest?
    And given that we still don't know the details relating to 
Russia's involvement in the election of the President, how can 
we trust that what was discussed between President Trump and 
his admitted supporter, Vladimir Putin, didn't compromise the 
President's ability to support and defend the Constitution of 
the United States against our enemies?
    These are basic questions that are absolutely critical to 
our understanding of the administration's policies toward 
Russia.
    We have an obligation as the committee of jurisdiction over 
foreign affairs to conduct proper oversight of the 
administration's actions and policies vis-a-vis Russia.
    I can't imagine what reason my colleagues could possibly 
use to justify their unwillingness to support this resolution. 
All it does is ask for documents--documents that will shed 
light into this important meeting between President Trump and 
President Putin, and nothing more.
    This is a basic function of our committee that we should 
exercise without hesitation and because it is our obligation.
    So I ask my colleagues to join me in support of this very 
well-written resolution of inquiry so that we can get to the 
bottom of this and really provide transparency to the American 
people so we can really understand what happened during this 
very consequential meeting and what are the implications for 
the United States' national security and our role in the world.
    And with that, I yield back.
    Chairman Royce. Any other members seek recognition?
    Mr. Boyle.
    Mr. Boyle. Thank you, Mr. Chairman, and I am pleased to 
have the opportunity to debate my resolution.
    It is now 2 months after the Helsinki Summit and we still 
don't know what was said in the private meeting.
    The President has not told the American people what he 
discussed nor has any administration official come before the 
committee in an open or even a closed setting to brief us on 
the important foreign policy matters that were addressed.
    What we do know is what Donald Trump announced directly 
following the unprecedented and puzzling one-on-one sit down.
    He sowed seeds of doubt regarding the unwavering conclusion 
of our intelligence community that Russia interfered in our 
election to the benefit of Mr. Trump and that Putin used the 
meeting as a propaganda boost--or propaganda to boost his 
stature as a check on American leadership.
    And we know what else Russia has been up to since. Our 
national security agencies have confirmed Russia is still 
working to attack the upcoming 2018 elections.
    Russia continues to prop up the murderous Assad regime and 
occupy eastern Ukraine. All of this context fuels important 
questions regarding the secrecy of this meeting and begs for 
transparency and congressional oversight.
    I introduced this resolution in July following the 
President's damaging and bizarre remarks at the press 
conference with Putin following the private sit down where the 
President met with Putin without any staff or advisors in the 
room.
    This meeting could have profound foreign policy 
implications and the President has already built a track record 
of giving away concessions with nothing in return.
    Did the President promise any concessions on U.S. sanctions 
on Russia? The U.S. commitment to NATO? The U.S. nonrecognition 
policy of the Crimea annexation?
    We simply don't know. But we do know that at the press 
conference President Trump said he ``spent a great deal of 
time'' talking about the election and that Putin feels strongly 
about it and has ``an interesting idea.''
    What does that mean? The President fueled doubt and 
speculation by refusing to say whether he believed the United 
States intelligence community or the Russian dictator on the 
subject of election interference in 2016.
    Trump said that the special counsel's Russia investigation 
has been a ``disaster for the U.S. and has kept America and 
Russia separated.''
    These comments can be added to a very long list of ways the 
President has gone out of his way to cozy up to Putin. Now, I 
wish this resolution weren't necessary. But here we are, 60 
days after the Helsinki Summit and we still don't know what 
President Trump said or committed to.
    We are a co-equal branch of government. Indeed, in the 
Constitution, we are the first Article. The executive is the 
second.
    It is time that we take off our red hat or our blue hat and 
put on our red, white, and blue hat. As fellow Americans and as 
Members of Congress, we have a responsibility to do our jobs.
    Let's get answers. Let's pass positively this resolution.
    Thank you, and I yield back.
    Chairman Royce. Thank you.
    We go to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair, and I urge support of 
this important resolution by my colleague, Representative 
Boyle, that directs the Trump administration to send the House 
copies of all documents and communications between Trump and 
Putin during the Helsinki Summit.
    The American people deserve to know the truth of what was 
discussed and I want to say with emphasis Congress has the 
oversight and authority, duty, to demand this information and 
it is critical to national security that this Congress not be 
just a lackey to the executive branch.
    And yet, the administration has failed to provide any 
information to come before this committee, as mentioned by my 
colleagues, and Americans are worried. They are in fear.
    Why is that? As a candidate, now President, Donald Trump 
refuses to say anything negative about Vladimir Putin. He 
actually shows admiration for a man who murders his political 
opponents, meddles in Western democratic elections, suppresses 
human rights, illegally annexes foreign territory, supports the 
murderous Assad regime in Syria, and more.
    And right before the Helsinki Summit, President Trump 
embarrassed our country at NATO, labeling our European allies 
as foes.
    Then standing at Putin's side in Finland he parroted 
Russian propaganda and repeated Putin's lies.
    When asked directly if he believed Russia interfered in our 
2016 elections, he said he didn't see any reason why.
    I'll tell you why or what he's ignoring. Number one, our 
own intelligence community unanimously concluded Russia has 
meddled in our elections. Number two, the Department of Justice 
has indicted 25 Russian nationals responsible for the meddling. 
And number three, Russia has a long proven history of 
assaulting Western democracies and using cyber attacks, 
disinformation, and support for nationalist political groups.
    Now, here's the thing. We don't have a clue what was 
discussed with the two--in the 2-hour-long private meeting 
between Trump and Putin--what promises were made, whether they 
talked about sanctions, what about our election.
    We have no answers and the cloud of secrecy is disturbing. 
We are in fear. It's been reported that they talked about 
holding a referendum in eastern Ukraine, Iran's presence in 
Syria, recognition of Russia's illegal annexation of Crimea, 
and the future of our nuclear arsenals, and we know Trump 
himself said it was a wonderful offer when Putin suggested 
Russia's interrogators question American citizens, including a 
former U.S. Ambassador to Russia.
    Is it possible that the President jeopardized our national 
security when he was alone in the room with Putin? But without 
these documents, we may never know.
    And I just want to conclude by repeating that Congress has 
the authority and the oversight duty to demand this information 
that is critical to our national security.
    I urge we use this responsibility and adopt this 
resolution.
    I yield back.
    Chairman Royce. Do any other members seek recognition?
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    The camera of history is rolling. We do not live in a time 
where Congress can just sit back. In fact, we live in 
extraordinary times.
    We cannot fool ourselves and say this is ordinary times 
because it's not, and history is looking to see what is the 
United States House of Representatives--what is the Congress 
going to do to make sure it is utilizing its oversight power of 
the executive branch--an equal branch of government.
    And so we cannot pretend that this is a normal 
circumstance. In fact, a number of my Republican colleagues, 
especially those that ran for President--not Gregory Meeks--
warned us about some of this back during the campaign during 
that time.
    I'd just refer individuals to the comments of Mr. Romney, 
who's running for United States Senate now; Mr. Cruz, who is, 
you know, during that primary period of time; Mr. Rubio, who 
also had comments about the President at that time, of which I 
continue to articulate and utilize.
    So they had some clues that this was not going to be an 
ordinary circumstance if Mr. Trump was elected, and that's why 
they said the things that they said during that campaign.
    And so what has played out is what we have seen to take 
place at the Helsinki Summit, which remains astonishing because 
for the first time a U.S. President sat in front of the world 
stage to undermine their own Department of Justice, their own 
intelligence community, and invited a foreign adversary to do 
the same.
    Without question, this is a troubling moment in our 
Nation's history. When given a chance to forcefully denounce 
Russia's interference in our elections, President Trump instead 
parroted Russia's propaganda.
    Even the administration's latest Executive order 
sanctioning foreign interference in our elections fails to 
mention Russia by name.
    This committee's request for documents, records, 
communications, and even the U.S. translator's notes 
constitutes not only a moral obligation but an execution of our 
constitutionally-enshrined right to check and balance the 
executive branch of government.
    No other vibrant democracy would accept a meeting between 
its head of state and a former KGB agent whose primary currency 
is half truths and disinformation and is committed to stirring 
up discord and division.
    We need accountability and we need it today. Unfortunately, 
we do not trust the administration not to give away key 
concessions on issues like Crimea, Ukraine, the nuclear 
nonproliferation.
    It's unprecedented for staff, his advisors, and technical 
experts to be excluded from discussions with far-reaching 
implications for not only the United States but the entire 
global community.
    It is hyperbolic to say Mr. Trump's secretive meeting 
undermines our national security and aggregates this chamber's 
ability to perform effective oversight.
    As public stewards dedicated to transparency and the rule 
of law, we just keep the executive accountable. It is time for 
all Members of Congress to put their affiliation aside and come 
together as Americans to address this blatant breach of trust.
    As the biblical maxim says, a little yeast works through 
the whole batch of dough. The yeast of secrecy and 
unaccountability, if left unchecked, will undermine the very 
foundations of our democracy.
    The actions of this President is just puzzling. I would 
have hoped that if he did then these transcripts would show 
that he was talking to the Russians, and should have been, 
about them being complicit with Syria, for example, in 
utilizing chemical weapons.
    He pulled out of an agreement that all had agreed with with 
reference to nuclear weapons. But was there any--with Iran--but 
was there any conversation in that regard and what is Russia's 
role?
    It seems to me that the American people and all of us here 
in Congress should know. So I would hope that my--our 
Republican colleagues and our public oaths require no demand--
I'll note they demand that we examine the Helsinki events 
closely and if not this body, the American people will regret 
not doing so and history will so record it, and I thank Mr. 
Boyle for his amendment.
    And I yield back the balance of my time.
    Chairman Royce. Other members seeking recognition?
    Congresswoman Norma Torres.
    Ms. Torres. Thank you, Chairman Royce.
    H.R. 1017 is an important measure and I thank my colleague, 
Congressman Boyle, for introducing it, and I also want to thank 
Chairman Royce and Ranking Member Engel for bringing it before 
this committee.
    H.R. 1017 would force the administration to turn over 
documents related to the July 16 meeting that took place 
between President Trump and Vladimir Putin in Helsinki.
    As I recall, Democrats were not the only ones with very 
serious questions about that meeting or concerns. As I recall, 
many of my Republican colleagues were shocked at the fact that 
President Trump would meet with Putin with no staff and shocked 
by the bizarre spectacle of a joint conference in which 
President Trump treated Putin like a friend, not the adversary 
that he is.
    He is not our friend, and let us be clear about that. 
Russia is not our ally. As we discussed in this morning's 
hearing, Russia is a subject to multiple U.S. sanctions for its 
many malign activities.
    The United States has sanctioned Russia for corruption, for 
interfering in our elections, for invading Crimea, for using 
chemical weapons to poison a former spy in the U.K.
    And I won't go into the long and sordid history of 
President Trump's relationship with Russia. I won't go into the 
many examples of President Trump's campaign officials' ties to 
Russia or the administration officials' ties to Russia in 
general.
    There is an ongoing investigation and we must allow that 
investigation to run its course. But I will say that there are 
some serious questions about the Helsinki meeting and the 
American people deserve to know.
    I hope that today that we can rise above party politics and 
bring some much needed transparency to this disturbing episode.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Royce. Thank you.
    Do any other members seek recognition?
    Seeing no further requests for recognition to speak, the 
question occurs on the pending motion of the Chair to report 
the resolution adversely.
    The Chair orders a recorded vote, as I stated at the 
outset, to give all our members a fair opportunity to 
participate.
    We are going to take a brief recess and then we reconvene 
to vote at 1:50.
    The committee stands in recess.
    [Recess.]
    Chairman Royce. Okay. This committee will come back to 
order.
    When we recessed, we had concluded debate----
    Mr. Deutch. Mr. Chairman.
    Mr. Chairman, move to strike the last word.
    Chairman Royce. The gentleman is recognized.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Chairman, the legendary journalist, Bob Woodward, 
released a book with disturbing details about what's going on 
in the White House.
    White House Chief of Staff General Kelly reportedly said, 
``President Trump has gone off the rails. We are in Crazy Town. 
I don't even know why any of us are here.''
    And General Kelly denied some of the comments attributed to 
him and Woodward is standing by his reporting. Either way, the 
question it raises is a good one.
    Why are any of us here? Why are any of us up here on this 
dais? Are we taking our duty to our constituents seriously? Are 
we living up to Article One of the Constitution? This is the 
people's House.
    We are the American people's check on power, check on the 
administration, their oversight of the White House.
    Are we going to take that job seriously? In July, I am sure 
many of you were as dumbfounded as I was when we saw the 
President of the United States stand side by side with Russian 
President Vladimir Putin.
    He undermined the conclusions of American intelligence 
agencies--the agencies made up of hardworking patriotic 
Americans who sacrificed so much and go out into the most 
dangerous situations to gather information to keep our country 
safe.
    The conclusions in their report have been publicly 
available since January 2017. President Trump pretended they 
didn't exist. He ignored the American lives that were on the 
line to create it.
    In fact, there are rumors that he considered Putin's 
request to allow questioning of some of those very U.S. 
officials. But once again, we don't know where the truth lies 
because the only people in the room were Donald Trump and 
Vladimir Putin.
    I don't know about you--that's not what I expect of my 
President. I expect strength in the face of Russian aggression.
    I don't expect our President to blame America when Russia 
invaded its neighbors, when it used nerve gas against agents in 
Britain, when it attacked the foundation of our democracy.
    If history teaches anything, it teaches that simpleminded 
appeasement or wishful thinking about our adversaries is folly. 
It means the betrayal of our past, the squandering of our 
freedom.
    That's how President Reagan said it in 1983. That is a 
statement with principles at its foundation and our dearest 
American values at its core.
    You won't hear anything like that coming out of this 
President's mouth. We cannot be complicit in Donald Trump's 
abandonment of the principals that used to guide us and we have 
a lot of work to do to restore American values.
    That's the answer to the question why are we even here. I 
urge my colleagues who have now returned to this hearing room 
to oppose the motion to report the resolution adversely so that 
we can move forward with Mr. Boyle's resolution and advance 
this committee's responsibility to protect our democracy by 
pursuing the truth.
    And I am glad to yield to my friend, Mr. Connolly.
    Mr. Connolly. I thank my friend and I thank him for his 
eloquence and for setting the parameters of what ought to be a 
fruitful discussion.
    I plead with my colleagues on the other side of the aisle. 
This committee has by and large seen and heard no evil when it 
comes to this President, even as he talks down alliances, even 
as he caters and panders to Vladimir Putin at the summit, even 
when he trashes our allies in the G7, even when he rips up 
agreements that disrupts long-term friendships and 
relationships, even when he deplores the EU and says that NATO, 
our longest alliance that worked so well and still does, is 
obsolete.
    Is there any line he can cross that might merit your ire? 
This resolution, allowed to come to the floor without a 
recommendation, would be something then the House of 
Representatives--the people's body--could debate, and 
fruitfully so.
    Or are we today once again simply going to vote along party 
lines to protect and defend the indefensible in foreign policy 
and once again shirk our duty as the committee of jurisdiction 
and cognizance to protect the foreign interests of the United 
States of America, even when that means we cross the executive?
    I hope we think long and hard about our action today and I 
thank Mr. Boyle for his leadership on this resolution and my 
friend from Florida for yielding.
    Mr. Deutch. Thank you, and Mr. Chairman----
    Chairman Royce. Thank you.
    Mr. Deutch [continuing]. I appreciate it. I yield back the 
balance of my time.
    Chairman Royce. All right.
    The pending question is on the motion to report House 
Resolution 1017 adversely. In other words, if you share my 
opposition to the resolution, you would vote aye.
    The clerk will call the roll.
    Mr. Connolly. Would the chair entertain a parliamentary 
inquiry first?
    Chairman Royce. I will entertain that inquiry.
    Mr. Connolly. I thank the chair.
    Just a couple of parliamentary inquiries. Is the motion----
    Chairman Royce. Will the gentleman state his inquiry?
    Mr. Connolly. Yes. I am going to ask if the motion is 
amendable.
    Chairman Royce. It is not at this point. We could consider 
an alternative motion only if this motion was defeated.
    Mr. Connolly. Because I have----
    Chairman Royce. The motion before us----
    Mr. Connolly [continuing]. I have an itsy bitsy change in 
the adverb from adversely to favorably. [Laughter.]
    Chairman Royce. Well--well, we could--we could consider 
that if this motion fails. But this is the motion before us, 
Mr. Connolly.
    Mr. Connolly. I thank the chair.
    Chairman Royce. All right. Well, thank you.
    So the pending question--we will ask the clerk to call the 
roll.
    Ms. Marter. Mr. Chairman.
    Chairman Royce. Aye.
    Ms. Marter. The chairman votes aye.
    Mr. Smith.
    Mr. Smith. Aye.
    Ms. Marter. Mr. Smith votes aye.
    Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Aye.
    Ms. Marter. Ms. Ros-Lehtinen votes aye.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Aye.
    Ms. Marter. Mr. Rohrabacher votes aye.
    Mr. Chabot.
    Mr. Chabot. Aye.
    Ms. Marter. Mr. Chabot votes aye.
    Mr. Wilson.
    Mr. Wilson. Aye.
    Ms. Marter. Mr. Wilson votes aye.
    Mr. McCaul.
    Mr. McCaul. Aye.
    Ms. Marter. Mr. McCaul votes aye.
    Mr. Poe.
    [No response.]
    Mr. Issa.
    [No response.]
    Mr. Marino.
    Mr. Marino. Aye.
    Ms. Marter. Mr. Marino votes aye.
    Mr. Brooks.
    Mr. Brooks. Aye.
    Ms. Marter. Mr. Brooks votes aye.
    Mr. Cook.
    Mr. Cook. Aye.
    Ms. Marter. Mr. Cook votes aye.
    Mr. Perry.
    Mr. Perry. Aye.
    Ms. Marter. Mr. Perry votes aye.
    Mr. Meadows.
    Mr. Meadows. Aye.
    Ms. Marter. Mr. Meadows votes aye.
    Mr. Yoho.
    Mr. Yoho. Aye.
    Ms. Marter. Mr. Yoho votes aye.
    Mr. Kinzinger.
    Mr. Kinzinger. Aye.
    Ms. Marter. Mr. Kinzinger votes aye.
    Mr. Zeldin.
    Mr. Zeldin. Aye.
    Ms. Marter. Mr. Zeldin votes aye.
    Mr. Donovan.
    Mr. Donovan. Aye.
    Ms. Marter. Mr. Donovan votes aye.
    Mr. Sensenbrenner.
    Mr. Sensenbrenner. Aye.
    Ms. Marter. Mr. Sensenbrenner votes aye.
    Mrs. Wagner.
    Mrs. Wagner. Aye.
    Ms. Marter. Mrs. Wagner votes aye.
    Mr. Mast.
    Mr. Mast. Aye.
    Ms. Marter. Mr. Mast votes aye.
    Mr. Rooney.
    Mr. Rooney. Aye.
    Ms. Marter. Mr. Rooney votes aye.
    Mr. Fitzpatrick.
    Mr. Fitzpatrick. Aye.
    Ms. Marter. Mr. Fitzpatrick votes aye.
    Mr. Garrett.
    Mr. Garrett. Aye.
    Ms. Marter. Mr. Garrett votes aye.
    Mr. Curtis.
    Mr. Curtis. Aye.
    Ms. Marter. Mr. Curtis votes aye.
    Mr. Engel.
    Mr. Engel. No.
    Ms. Marter. Mr. Engel votes no.
    Mr. Sherman.
    Mr. Sherman. No.
    Ms. Marter. Mr. Sherman votes no.
    Mr. Meeks.
    [No response.]
    Mr. Sires.
    Mr. Sires. No.
    Ms. Marter. Mr. Sires votes no.
    Mr. Connolly.
    Mr. Connolly. Nay.
    Ms. Marter. Mr. Connolly votes no.
    Mr. Deutch.
    Mr. Deutch. No.
    Ms. Marter. Mr. Deutch votes no.
    Ms. Bass.
    [No response.]
    Mr. Keating.
    Mr. Keating. No.
    Ms. Marter. Mr. Keating votes no.
    Mr. Cicilline.
    Mr. Cicilline. No.
    Ms. Marter. Mr. Cicilline votes no.
    Mr. Bera.
    Mr. Bera. No.
    Ms. Marter. Mr. Bera votes no.
    Ms. Frankel.
    Ms. Frankel. No.
    Ms. Marter. Ms. Frankel votes no.
    Ms. Gabbard.
    [No response.]
    Mr. Castro.
    Mr. Castro. No.
    Ms. Marter. Mr. Castro votes no.
    Ms. Kelly.
    Ms. Kelly. No.
    Ms. Marter. Ms. Kelly votes no.
    Mr. Boyle.
    Mr. Boyle. No.
    Ms. Marter. Mr. Boyle votes no.
    Ms. Titus.
    Ms. Titus. No.
    Ms. Marter. Ms. Titus votes no.
    Ms. Torres.
    Ms. Torres. No.
    Ms. Marter. Ms. Torres votes no.
    Mr. Schneider.
    Mr. Schneider. No.
    Ms. Marter. Mr. Schneider votes no.
    Mr. Suozzi.
    Mr. Suozzi. No.
    Ms. Marter. Mr. Suozzi votes no.
    Mr. Espaillat.
    Mr. Espaillat. No.
    Ms. Marter. Mr. Espaillat votes no.
    Mr. Lieu.
    Mr. Lieu. No.
    Ms. Marter. Mr. Lieu votes no.
    Chairman Royce. Have all members been recorded?
    The clerk will report the vote.
    Ms. Marter. Mr. Chairman, on that vote there are 23 ayes 
and 18 noes.
    Chairman Royce. The motion is adopted and House Resolution 
1017 will be reported adversely.
    The motion to reconsider is laid on the table and without 
objection staff is directed to make any technical and 
conforming changes.
    Mr. Connolly. Mr. Chairman, I have a----
    Chairman Royce. That concludes our business.
    Mr. Connolly. I just have a UC request to enter something 
into the record.
    Chairman Royce. Without--well, let--state the nature of 
your UC request.
    Mr. Connolly. I have a series of 20 different quotes from 
Members of Congress with respect to the Helsinki performance. I 
was simply asking unanimous consent they be entered into the 
record.
    Chairman Royce. Without objection.
    Mr. Cicilline. May I ask--I am sorry, Mr. Chairman. May I 
ask that those--before I decide whether to object that Mr. 
Connolly read those statements? [Laughter.]
    Chairman Royce. I think there will be objection at that 
point. [Laughter.]
    So might I suggest that----
    Mr. Connolly. I would ask my friend from Rhode Island to 
perhaps withdraw his request. [Laughter.]
    I thank the chair.
    Chairman Royce. Very good. I am trying to be helpful here.
    That concludes our business. Without objection, the 
committee is adjourned.
    [Whereupon, at 2:05 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
	 
         
         
         
 
Material submitted for the record by the Honorable Gerald E. Connolly, 
     a Representative in Congress from the Commonwealth of Virginia



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]

</pre></body></html>
